  . "'.




               NATIONAL DRG VALIDATION STUDY:

          SPECIAL REPORT ON PREMATURE DISCHARGES




  1I11




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS


                                                FEBRUARY 1988
                     Office of Inspector General

The mission of the Office of Inspector General (OIG) is to
promote the efficiency, effectiveness and integrity of programs
in the United states Department of Health and Human Services
(HHS). It does this by developing methods to detect and prevent
fraud , waste and abuse. Created by statute in 1976 , the
Inspector General keeps both the Secretary and the Congress fully
and currently informed about programs or management problems and
recommends corrective   action.The OIG performs its mission by
conducting audits, investigations and inspections with

approximately 1 200 staff strategically located around the

country.
                  Office of Analysis and Inspections

This special report is produced by the Office of Analysis and

Inspections (OAI), one of the three major offices wi thin the OIG.
The other two are the Office of Audit and the Office of
Investigations. The OAI conducts inspections which are typically
short term studies designed to determine program effectiveness
efficiency and vulnerability to fraud or abuse.

                             This Report

Enti tled " National DRG Validation  Study:Special Report on
Premature Discharges " this study was conducted to determine to
what extent Medicare beneficiaries were being inappropriately
discharged from the hospital. The report was prepared by the
Regional Inspector General , Office of Analysis and Inspections
Region V. Participating in this project were the following
people:
Region V                          Headquarters
William Moran                     David Hsia , J. D., M.
Natalie Coen                      Mark Krushat, M.
Margaret Shell                    Cathaleen Ahern
Suzanne Johnson                   Mary Hogan

Aquilla Box

                 NATIONAL DRG VALIDATION STUDY:

             SPECIAL REPORT ON PREMATURE DISCHARGES





                      RICHARD P. KUSSEROW

                       INSPECTOR GENERAL





OAI-05-88-00740                                 February 1988
                        EXECUTIVE SUMRY


PURPOSE   One of the undesired manifestations of the Prospective
Payment System (PPS) that has received national attention has
been the premature discharge of patients. This study was
conducted to determine to what extent Medicare beneficiaries were
being inappropriately discharged from the  hospital. It is one in
a series of reports resulting from a major study undertaken by
the Inspector General on the accuracy of diagnosis related group
(DRG) coding and the appropriateness of medical care performed in

Medicare hospitals.



BACKGROUND    In October 1983, a new method of payment for
Medicare hospital stays was introduced. It was hoped that by
providing appropriate financial incentives, hospitals would
implement economies and efficiencies to help curb escalating
heal th care costs. Under PPS , hospitals receive a preestablished
payment based on 1 of 473 DRGs. Regardless of the amount of time
a beneficiary spends in the hospital or the amount of resources
expended during his or her stay, hospitals receive a fixed
payment for each specific DRG. The hospital retains any surplus
from stays costing less than the DRG payment and suffers losses
on stays consuming more services than the payment.
These same financial incentives might induce some physicians and

hospi tals to withhold needed services and discharge patients

prematurely, thereby increasing profits , while placing

beneficiaries at risk. Evidence of such occurrences began

appearing shortly after PPS was implemented. Once the issue was

identified, it sparked media attention , congressional hearings

and studies by various Government agencies and consumer groups.

Scrutiny of this area , including two reviews conducted by the

Inspector General , revealed procedural problems in identifying

and handling instances of premature discharges. Also identified

was a lack of understanding by the public and medical community

regarding PPS coverage and patient rights under the new payment

system. However , most importantly, the need for focusing more

attention on the quality of patient care was identified

repeatedly in congressional hearings and Federal reports.

Despi te intense interest in this area, quantifiable data

regarding the actual frequency of premature discharges was

unavailable until this study was undertaken.


MAJOR FINDINGS     This study reviewed the hospital records of

7 , 045 randomly selected Medicare patients discharged during the
period October 1984 through March 1985. We found that

approximately 1. 1 percent of the sampled beneficiaries were
discharged prematurely. Weighted appropriately, this data

indicates that . 8 percent of all Medicare discharges were
premature. This statistic suggests that the occurrences of
premature discharges are fewer than previously suspected. While
the overall number of identified premature discharges was small
1 in every 5 hospitals reviewed had at least 1 occurrence of a
premature discharge; 1 in every 3 rural hospitals reviewed had 1
or more identified instances.
Premature discharges occurred most often in small , rural , non­
teaching facilities. Of the patients discharged
inappropriately, the majority had quality of care issues
associated with their stay in the hospital. Inadequate treatment
and incomplete therapies characterized premature discharge cases.
There was no distinguishable pattern in the DRGs assigned to
inappropriate discharge cases. Most cases clustered in DRGs
relating to the circulatory, respiratory, and digestive systems
as did the cases in the rest of the sample.
Besides analyzing hospital and case characteristics , we also
looked at premature discharges in terms of hospital financial
concerns.  Under PPS, a hospital is rewarded for accurate DRG
coding, the elimination of unnecessary services and reduction in
the length of hospital stays. However , manipulation of DRG
coding and the premature discharge of patients will cause
excessive program payments and may improperly place patients in
medical peril.

Using ICD-9-CM codes, hospitals must list in correct sequence the
appropriate diagnoses and procedures of a patient's case.     This
is necessary for the fiscal intermediary to assign the correct
DRG and make appropriate payment. Coding errors were found in 15
of the 74 premature discharge cases (20. 3 percent). Of these 15
miscoded, cases , 11 or 73. 3 percent caused overpayments to the
hospitals. In the remaining four miscoded cases, the hospital
was underpaid. In the entire sample of 7 045 cases , a 21 percent
error rate was identified. In 61. 7 percent of these miscoded
cases the hospitals were overpaid; the coding errors in 38.
percent of these cases caused underpayments to be made.
The majority of the premature discharges occurred on or
considerably after the mean length of stay (LOS) for the
respective DRG. This leads us to conclude that premature
discharges resulted not necessarily from an attempt by physicians
and hospitals to maximize profits. Rather , it seemed to be a
measure taken to minimize losses on patients whose hospital costs
were nearing or exceeding the DRG payment. Regardless of the
financial impact on the hospital , patients, when discharged while
still in need of acute hospital care, were being put at risk.
CONCLUSION     This study quantifies , for the first time , the
frequency of Medicare premature hospital discharges. The number
does not appear to be as high as previously suspected. In
addi tion , since the time our sampled patients were discharged
from the hospital , Peer Review Organizations (PROs) have received
increased authority to deal with instances of premature
discharges and/or poor quality of care.     Hospital payment for
subsequent stays in the same hospital , resulting from a premature
discharge , can now be denied. Soon , PROs will be able to deny
payment for identified instances of substandard care. Also , PRO
screens , used to target hospital cases for scrutiny for possible
premature discharges, have been expanded to include sampling of
all readmissions occurring wi thin 31 days of the initial
discharge. In addition , an effort has been underway to fully
advise beneficiaries of their rights under PPS.     They and their
families should now be aware that a patient cannot be discharged
from the hospital simply because " the DRG days are up.

Because these measures have not been fully implemented and their
effectiveness has not been fully assessed , we do not at this time
recommend that additional safeguards be established. Also , in
the spring of 1987 several PRO pilot proj ects were completed that
addressed various aspects of this issue. We hope that
information contained in this report along with the results and
recommendations from the PRO studies will assist the Health Care
Financing Administration (HCFA) in formulating strategies and
policies in this area. We support continued vigilance on the
part of HCFA and the PROs in:
     detecting individual cases of inappropriate discharges;

     profiling hospitals and physicians to identify aberrant

     discharge patterns;
     denying reimbursement for subsequent hospital stays

     resul ting from a premature discharge; and


     sanctioning of hospitals and physicians engaged in putting

     financial concerns above the well being of their patients.





                               iii

                         TABLE OF CONTENTS



                                                 Page
EXECUTIVE SUMRY
       INTRODUCTION

           Background

           Objectives
           Methodology
 II.   FINDINGS
           General Findings
           Frequency of Premature   Discharges
           Case Characteristics
           Financial Implications
III.   CONCLUSION

       Sampling and Methodology - Appendix I

           Record Collection

           Medical Review

           Statistical Analysis

       Hospi tal Demographics - Appendix II


       Frequency of Premature Discharges by

         Hospi tal - Appendix III


       Discharge Destination by Bed Size ­

         Appendix IV
       Case Frequency by MDC - Appendix V

    INTRODUCTION

On October 1, 1983, HCFA, the organization responsible for
administering the Medicare program, largely replaced its hospital
cost-based reimbursement system with    PPS.Congress mandated this
change because of the rapid increase in Medicare s payments for
inpatient expenses. Under the new system , hospitals receive a
preestablished payment for each discharge based upon an assigned
DRG. Each of the 473 DRGs results in an associated payment
that represents an average cost for patients having similar
diagnoses.   Some patient hospital stays consume more services;
  e., cost more than the payment, while others use   less. The
hospi tal retains any surplus from stays costing less than their
DRG payment and suffers losses on stays consuming more services
than the payment.

Congress assumed that a fixed payment per discharge would induce
hospi tals to implement economies and reduce   unecessary services.
At the same time, the total payments to the hospitals would
provide the same essential resources for patients as the
cost-based system. While the intent of Congress was to reduce
health care costs, it was also concerned that the quality of care
not diminish under this new system. To protect the integrity of
PPS and maintain quality of care, Congress established PROs to
moni tor   PPS acti vi ties.
Under the new payment system, beneficiaries in 1984 were being
discharged on an average of 2. 5 days earlier than in  1983. Some
were erroneously being told that it was because Medicare would
not pay for additional days in the hospital. Confused by these
changes and not fully      cogizant of their
                                          rights, patients sought
answers from physicians and hospital personnel who themselves did
not fully understand the new payment system.
A somewhat rocky transition period did characterize the change
from a cost-based reimbursement system to PPS. Beneficiaries,
their physicians and the hospital community were forced, in a
very short time period, to adjust to one of the most dramatic
changes in health care reimbursement since the creation of
Medicare. An early, unintended manifestation of the new payment
system was the premature discharge of Medicare patients.
Under the previous reimbursement system , premature discharges
were not identified as a problem because the longer the patient
stayed in the hospital the greater amount of payment the hospital
received. Once the issue was identified it was discussed in the
news, congressional hearings were conducted and it was examined
by various governmental agencies and consumer    groups.These
examinations revealed procedural problems in identifying
premature discharges and dealing appropriately with those
responsible; a lack of understanding by the public and medical
communi ty regarding PPS coverage and patient rights under the new
system; and most importantly, they identified the need to focus
more attention on the quality of patient care under PPS.

With the advent of prospective payment, the Office of Inspector
General (OIG) evaluated PPS and its potential effects on
utilization and provider behavior in order to detect and prevent
program fraud, abuse and waste. In analyzing vulnerabilities
that could result in " gaming " or manipulating PPS, OIG identified
several major concerns. Among these were " upcoding " the DRGs to
obtain higher reimbursement, admitting patients not in need of
acute hospital care to maximize DRG payments, and inappropriately
or prematurely discharging patients before hospital expenditures
exceeded the DRG payment. Underutilization of hospital resources
and inappropriate transfers between acute care hospitals and
exempt units were also areas of concern.
Based on these concerns, the Inspector General has completed
three validation studies of DRGs 14 , Specific Cerebrovascular
Disorder Except Transient Ischemic Attack (TIA), DRG 82
Respiratory Neoplasms, and DRG 88, Chronic Obstructive Pulmonary
Disease. A review of PRO activity in identifying and handling
cases of inappropriate discharges and transfers was also
completed early in 1986, along with a study regarding beneficiary
rights under the new payment system. An ongoing study of
hospi tal Medicare profits is being conducted by the Office of
Audit as well as a study of 1-day hospital stays.
In addition , a major initiative, the National DRG Validation
Study, was undertaken to survey the accuracy of DRG coding and
quali ty of care performed by hospitals under PPS.   Based on data
from this national study and ' additional data from other sources,
several reports will be issued by the Inspector General
regarding identified areas of manipulation and gaming. Quali ty
of care, as well as PRO performance in monitoring PPS  activities,
will also be addressed. This report specifically discusses
premature discharges.
Background
Inappropriate physician/hospital behavior can place beneficiaries
at unnecessar risk and inflate program payments. Because PPS
gives the    bopital a
                    fixed payment regardless of how long the
patient st   8, the hospital may not only reduce costs, but also
discharge Medicare patients " quicker and sicker.   Excessive
hospi tal pressure on physicians for early discharge may
improperly place patients at medical peril. The beneficiary who
leaves the hospital clinically unstable, while needing high
levels of care, risks unecessary clinical deterioration
readmission , or death.
Premature discharge increases provider profi tabili ty in
                                                        two ways.
First, the DRG payment represents an average cost that includes

proper workup and treatment. By sending the patient home
prematurely, the hospital gains the Iunds not expended on the
medically-indicated level of services. Second , the premature
discharge creates an opportunity to earn a second DRG payment for
the patient' s readmission in the near future.
Also, some hospitals are inappropriately using the DRG average or
mean LOS. Based on national data, both the arithmetic mean LOS
and the geometric mean LOS are calculated for each DRG and
published by HCFA. The geometric mean LOS is used in calculating
payment for day " outlier " cases. The arithmetic mean LOS is
calculated by HCFA for comparison purposes only. It is not
used in payment determinations.

Outliers were created to provide additional payment for unusual
circumstances. These cases are those that have either an
extremely long LOS or extraordinary costs when compared to most
discharges in the same DRG. If a case meets the necessary
criteria for day or cost outliers, the hospitals may receive
extra payment in addition to the applicable DRG payment.
Proper use of the mean LOS is made when calculating day outlier
payments or analyzing data.   The DRG mean LOS was never intended
to be used as a criteria for determining a patient discharge from
the hospital. However , as documented in this and previous OIG
studies , some hospitals appear to have policies encouraging or
requiring the discharge of patients prior to or at the mean LOS.
Such arbitrary policies directly link provider profi tabili ty with
endangerment of beneficiary health. Provider statements to
patients to the effect that " your DRG days are up " improperly
seek to shift the responsibi i ty for premature discharge to the
Government.
The American Medical Association (AM) report of its DRG
monitoring project discussed early discharges both as a
manifestation of administrative pressures and as a quality
concern.  Forty-three percent of the surveyed physicians reported
that there was pressure to discharge patients early, 32 percent
state that policies had changed for the better , and the remaining
25 percent stated that they had not noticed a change in hospital
discharge practices.

In a study by the American Society of Internal Medicine (ASIM),
physicians cited the following as examples of hospital imposed

pressures:
      Printed forms appear on the chart 1-2 days before the DRG

     expires, strongly suggesting discharge.


      When the DRG ' expires ' I am reminded and urged to do
     something. "
                  ."




      Pressure to discharge sooner is very great and workup is

     often incomplete.


      One local hospital details the cost on the front of the
     record--the patient is aware of
     anxiety. .
                                      this. It has created

      The hospi tal is not exerting pressure on our staff , but
     there is pressure just knowing the hospital' s livelihood
     depends on us.
Under the cost-reimbursed system , the financial incentive was to
maximize services and prolong hospital  stays.  This was a
comfortable environment for physicians. They could provide
continuity of care, ordering all tests and therapies they deemed
necessary while keeping the patient in the hospital for , in their
opinion , an appropriate length of time without interference from
hospi tal management. Wi th the implementation of PPS, hospitals
began monitoring physician practice patterns in order to identify
and eliminate costly unnecessary tests and days in the hospitals.
This seemingly intrusive behavior on the part of hospital
administrations, coupled with a new emphasis on financial
concerns, was an abrupt change for most physicians.
Objectives
This study was conducted to determine to what extent Medicare
patients were being discharged prematurely. We evaluated the
patient' s condition upon leaving the hospital. If the patient
was medically unready for discharge at that time, the discharge
was identified as premature., Because a physician decides whether
to discharge the patient without knowing the beneficiary
future course, this report identified premature discharge
regardless of whether the patient subsequently did well , required
prompt readmission , or expired as a result of the initial
premature discharge. Nei ther the patient' s medical condition at
the time of initial admission nor at readmission affected the

classification of a discharge as premature.


Methodolog
Using a tw-stage cluster design , we sampled 7 045 complete
medical recrds   from 239 hospitals stratified by size. The cases
were drawn from hospital discharges occurring during the period
beginning October 1984 through March  1985.  The OIG contracted
wi th the Health Data Institute (HDI) for medical records
specialists to code the diagnoses , and for physicians and nurses
to assess the appropriateness of the discharges. A comprehensive
system of reviews and referrals verified the accuracy of the
process.
In assessing appropriateness of care, the patient' s condition

was evaluated during three points in  time. The first reference
was upon admission. Unnecessary admissions were identified at
this time. The second evaluation of care concerned the treatment
of the patient during his or her hospital  stay. Determinations
of poor quality of care, unneeded procedures, etc. , were then
made. Finally, a decision    regarding the appropriateness of
discharge was reached. Registered nurses initially screened the
medical records for incidents relating to the appropriateness of

admission , quality of care and appropriateness of the discharge.
If inadequacies were found , the medical record was then referred

to a physician. In general , if , in the physician s judgment , it

was determined that the patient was still in need of acute

hospi tal care 24 hours before his or her release from the

hospi tal , the discharge was determined to be premature.

narrative sumary was then prepared describing the nature of the
deficiencies noted.


The reviewers had instructions to ignore marginal problems or

cases involving honest differences in medical judgment about

appropriate case management and subsequent discharges. An OIG
medical consultant evaluated all narrative sumaries and quality
of commentary and found them to be adequate and consistent.

Further information regarding sampling and review methodolog
can be found in Appendix I.

discharges differs from HCFA' s.
It should be noted that our methodolog in identifying premature
                                 Therefore, comparisons between
HCFA data and our data should be made with caution. During the
time period covered by this sample, PROs were instructed to
identify all readmissions to the same hospital within a 7- to

15-day period from the date of discharge. The PROs then

reviewed potentially related hospital stays to determine if the

discharge from the first stay was premature.


The PROs had more information than we did regarding what happened
to the patient after the first discharge. However , HCFA' s
screening mechanism did not identify premature discharges that
resul ted in admissions to other acute care hospitals or early
discharges that did not necessitate another hospital admission.
While we did not track patient outcomes upon leaving the
hospi tal, we assume not all of the premature discharge cases
identified necessitated a hospital readmission. Therefore, this
study included some case
PRO screens.

                         tyes   that would not have been caught by

II.   FINDINGS
General Findings
Of the 7, 045discharges in the sample , the reviewers identified
74 as premature. That  is, it was determined that approximately
  l percent of all sampled patients were still in need of acute

inpatient hospital care at the time of discharge. Weighted
appropriately, this data would suggest that . 8 percent of all
Medicare discharges were premature. The premature discharges
were identified in 52 or 21. 8 percent of the 239 hospitals
reviewed. Of the 239 sampled hospitals, 38 percent were rural;
yet of the 52 hospitals with premature discharges , 60 percent
were rural.

More than half of the hospitals in which premature discharges
occurred were under 100 beds, whereas hospitals under 100 beds
represented only one-third of all sample          hospitals.
                                                      Data arrayed
in the graphics below suggest that premature discharges occurred
more frequently in small , non-teaching, rural hospitals.
More detailed information regarding hospital demographics can be
found in Appendix  II.



                                         ID liD


                         (l00



                                             1"



                                          (l00 IOS
                                                                  Ins

             tOtaL HospnaLS I"   sa..u      PlfURI DISCMalG HOSPitALS
                     n = 23'                         n = 51
                                                            .. .




                 TIACHIMC v. HO-TIACHIHC HOSPITALS


                      HO-TEACHIMC




                              HO T EACH I NG

                                                                   EACH I tt





 TOtAL HOSPitALS IN   S""U:          PRETURE DISCHAIC MOPITALS
          n = 239                                  " = 52
                                                                   ".L v. URBN HOSPI TALI




                                      URIN


                                    TOtAL HOSPIULI IN    S""U:                  PRTURE DISCHAac HOSPITALS
                                               n = 239                                   n = 52



The distribution of states with identified early discharges shows

a greater concentration in the southeastern and southcentral

regions. The hospitals in these two southern areas accounted for

35 percent of the 239 sampled hospitals. Twenty-eight of the

eighty-three hospitals in these areas (34 percent) were

prematurely discharging patients. However , these 28 hospitals

accounted for over one-half (28 of 52) of the hospitals

identified as prematurely discharging patients and accounted for

well over one-half (47 of 74) of the inappropriate discharge

cases identified.
Please note that most of the northeastern section of the country
was excluded from this review because New York , Maryland , New
Jersey and Massachusetts held waivers exempting them from PPS.
Frequency of Premature Discharges


Fifteen of the fifty-two premature discharge hospitals were
responsible for one-half of the 74 cases identified. The
majori ty of hospitals (40 of 52) had only one incidence of
premature discharge identified in the sampled cases reviewed.
The highest frequency of inappropriate discharges found in 1
hospi tal was 6 of 30 sampled   cases.Appendix III contains
addi tional information regarding the frequency of premature
discharges by hospital. The top five hospitals with the most
premature discharges were small , rural , publically-owned
facili ties.  These five hospitals also had a large number of
quality concerns associated with the cases reviewed. The
following chart indicates total cases sampled at these hospitals

the number of discharges where the quality of care received by

the patient while hospitalized was questioned and the number of

discharges identified as premature at each hospital.



                NUER            NUER             PREMTUE
     HOSPITAL   CASES SAMPLED   QUALITY ISSUES   DISCHARGES




Because of the nature of the quality issues identified and the
number of cases evincing quality concerns, four of the above five
hospi tals were referred for potential sanction development.
Case Characteristics

Most of the 74 prematurely discharged beneficiaries were
discharged to their homes (48 of 74); 1 in 5 were discharged to
an intermediate care facility (ICF). The following graph
compares all sample discharge destinations to that of the
patients discharged prematurely. As evinced by the data, a
disproportionate number of prematurely discharged patients
compared to all sampled patients went to posthospital care
settings such as skilled nursing facilities (SNFs), ICFs, home
heal th agencies (HHAs), and other institutions. Appendix IV
contains case discharge information broken out by hospital bed
size. Please note that discharge destinations were coded from the
actual hospital bills submitted.  This data was not verified with
information contained in the medical records.

                             tllCMIC tISTIN8TION




                                     EXI RED



                                                              THER




            TOtAL "TIDlS IN CAIILJ        "TIDlC PRTU8IY DISCHARGED
                   n = 704                          n = 74

Patient quality of care was evaluated separately from
inappropriate discharge. Quali ty of care determinations were
made within the context of treatment received during the stay in
the hospital. The appropriateness of discharge determinations
considered only the patients condition at discharge. Sixty of
the seventy-four premature discharge cases evinced quality

concerns attributable to care received during the course of

treatment in the hospital.


Within the 74 premature discharges, 99 occurrences of

inappropriate or incomplete treatment were identified at the time
of the discharges. The most frequent occurrences of inadequate
treatment involved in a premature discharge determination were
due to incomplete workups (43 of 99), followed by incomplete
therapies provided to the patients (26 of 99 cases). In 5 of the
74 cases , the information contained in the medical records

indicated that the patient was nearing or had exceeded the

 average length of stay " for the DRG and should be discharged in

order to conserve hospital resources.
A listing of the generic reasons why patients should not have
been released from the hospitals and the number of cases falling
into each category is as       follows:
                                   (Please note that a single
case could fall into one or more categories.

Category                                           Number of Cases
Incomplete Workup

Prior to Discharge


Incomplete Therapies

Provided Prior to Discharge

Temperature Greater than 100. 2' F
24 Hours Prior to Discharge
Patient Unstable (Not Other­

wise Classified) Prior to

Discharge
Clinical Condition Worsening

at Discharge

Financial Reasons for Discharge


Intravenous Antibiotic/Therapy Administered

Less than 24 Hours Prior to Discharge

Medical Procedure Deferred Unneces­

sarily; Patient Discharged

Surgery Deferred Unnecessarily (Split

Diagnosis/Therapy); Patient Discharged


Appendix V compares the premature discharges by maj or diagnostic
category (MDC)  to the overall sample. Forty-five of the
seventy-four premature discharges clustered in DRGs relating to
the circulatory, respiratory and digestive systems as did the DRG
in the total sample.

Financial Implications

As discussed earlier , hospitals can increase revenues by

prematurely discharging patients. A better understanding of the

financial considerations that may induce the premature discharge

of patients can be had by looking at hospitals in the context of

mean LOS , accuracy of DRG coding, case mix indices (CMls) and

Medicare profit margins.


In reference to LOS, premature discharges appear to fall into

three categories:


            Those patients who were kept for only a few days, when
            the DRG mean LOS was several times greater (19 of 74).
            Those patients who were discharged on or about the mean
            LOS for their DRG (42 of 74).
            Those patients who were kept for considerably longer

            than the DRG mean LOS (13 of 74.

The data above is based on an analysis of each DRG mean LOS

compared to the patient' s actual LOS in the hospital. The
following chart arrays the sample mean LOS of each bed size
category by type of hospital.
                                         MEAN LENGTH OF HOSPITAL STAY

                                    By Bed S1 ze and Type of Hosp1   tal



                             Number               Number          Number       Number
 Bed S1ze               HLOS Hos tals             Cases      HLOS Hos 1 tals   Cases
 ( 100                                            2273
 100 - 299                                        2387
  00 +                     . 7                    2 85


The data on the sample mean LOS for large hospitals identified as
prematurely discharging patients provides some support for the
theory that in order to maximize DRG payments hospitals and
physicians would withhold services and discharge patients
prematurely after a few days of                      care.
                                       These hospitals were
discharging patients on an average of 5 days earlier than their
peers. However , this does not hold true in small-sized hospitals
where prematurely discharged patients stayed , on the average,
almost a day longer than patients appropriately discharged.
Both analyses of data indicate that the majority of the patients

being prematurely discharged left the hospital on , about, or
considerably after the DRG mean LOS. This suggests the patients
were not being inappropriately discharged in order for the
hospi tals to maximize their profits. Rather , it seems they were
being discharged to minimize the hospitals ' financial losses on

patients whose continued cost of care would exceed the DRG
payment. Regardless of whether the intent was to maximize
profi ts or minimize losses, patients were still being put at
risk.
Under PPS, the accuracy of DRG coding is critical in determining
fair and accurate payment. Using ICD-9-CM codes, hospitals must
list in correct sequence the appropriate diagnoses and procedures
of a patient'           s case.
                      This is necessary for the fiscal
intermediar to assign the correct DRG and make appropriate
payment.
In this study, DRG coding errors were identified in 15 of the 74
premature discharge cases (20. 27 percent). This  is similar to
the 21. 0 percent error rate found in the entire sample of 7 045
cases. Of the premature discharges having DRG changes, 11 of the
15 (73.   3 percent) were recoded into a lower                       eighted DRG. This
means the hospitals , by miscoding the DRGs, were overpaid for the
patients ' hospital stays. Four of the fifteen cases (26.
percent) were recoded into higher weighted DRGs which indicates

    ..                                 + ,.               (,)




the miscoding in these instances resul ted                       in an underpayment to

the hospital. In the entire sample , 61. 7 percent of the coding

changes resul ted in a lower weighted DRG and in 38.
the cases the resultant DRG had a higher weight. 3 percent of
in instances of premature discharges, the miscodingIt appears that

                                                     of DRGs

tended to favor the hospitals slightly more often when compared

to effects of coding errors in the entire                        sample.
In addition , we compared CMls and Medicare profit margins of

sampled hospitals to hospitals with premature discharges.

According to HCFA , the CMI is a sumary statistic representing
the relative costliness of each hospital' s mix of cases compared
to the national average mix of cases. Thus , a hospital that
offered less sophisticated services and treated relatively simple
cases would be expected to maintain a lower CHI than one with
more specialized services and more complicated cases. Small
rural hospitals would be expected to have lower CMls than
urban tertiary care hospitals.                             large,
The HCFA calculates and uses regional , national , and hospital
specific CHIs for calculating DRG payment and in determining
referral center status. If a rural hospital is designated a
referral center , it receives a higher DRG paYment amount because
the hospital' s cases are of a more complex nature than other
rural hospitals. The fOllowing chart compares the CHIs of the
sampled hospitals with the 52 hospitals prematurely discharging

patients.

                                      CA. MIX IHDD
                      8y 884 Si.., Y..r and      Ty. of Boapi tal

                 AL   IlU 8D.I'f                                           . IIs.I'fAL

    8ed She      CI U83      U85" IDcr.... CI 1913                1,.5       IDcr....
    ( 100
         (D)
                  o. U2'
                     (7')	
                               002'	                 o.   nit
                                                          (27)
                                                                 o. '707    + 5. 14   ,


    100 -           0012       11'5    +10. 71'      o. flU         085'    +12. 02'
          (D)       (10)                                (11)

     300 +          1024       2580    +14. 11'           0578      2U4     +17. 73'

          (D)	       (10)


         (D)	
                    0190
                   (23')
                               1273    +10.   '2'


         A8 u.ed for paJ8t., ba.84 OD 1981 d.:t.a
                  c:88 billed
         ...84 OD 	           UDer ... t.rou9b            oJ... UII for     1,.5, a.84
         for capital C0t. for8a oay

As expected , the small sample hospitals had lower CMls. However
all the hospitals with premature discharges had lower CMls
compared to their peers wi thin the respective bed sizes.

Theoretically, increases in a hospital' s CMI were anticipated due
to events such as a change in services or specialty, an
increased use of newly developed technology, and increased
attention to DRG coding, which would identify complicating
factors in patients ' conditions which had not been coded
previously. In addition , with many minor surgical procedures
being moved to outpatient settings, the average inpatient case
would become marginally more complex.
The HCFA has calculated hospital CMls based on case experience

during Fiscal Year (FY) 1985 from bills submitted through June

1986. As the previous chart demonstrates, in FY 1985 hospitals

in all categories treated , on the average, more complex cases.

Both medium and large hospitals with premature discharges had
greater increases in their CMls compared to other hospitals in
the respective bed size categories. Small hospitals with
identified premature discharges, who were mostly rural in nature
did not increase their CMls at the rate of their peers,
suggesting that they may not be as financially viable
as others in an increasingly competitive hospital market.
Another indicator of a hospital' s financial viability is its

profi tmargin.  This information was not specifically collected
for all 239 hospitals in this study. However , 97 of the sampled
hospitals were examined in the course of another OIG study
focusing on hospital Medicare profits in FY 1984.
The weighted average Medicare profit margin was computed by
adding total hospital Medicare revenues. Included were DRG
paYments, outliers, indirect medical education payments , and
return on equity. Medicare inpatient operating costs were then

subtracted to arrive at Medicare profit. The profit margin was

calculated by dividing the Medicare profit by Medicare revenues

as weighted by strata. The weighted average Medicare profit

margin was about 15 percent. In dollars, the average Medicare

hospital netted about $1.   4 million in revenues.
                                                 The following
chart shows the available weighted average profit margin by bed
size for 97 of the 239 hospitals in this study compared to the
weighted average profit margin by bed size of 23 of the 52
hospi tals   which had premature discharges.
                                HIT PROPIT MAIH
                     By Bed Si z e  and Type of Hospi   tal

                                                  Premture
                                     All SUlple   Disc:harqe
                    Bed She          BosDi tals   BosDi tals
                    ( 100              9.                33t
                      (n)              (30)         (13)
                    100 - 299         13. 521      14 . 80'
                       (n)             (28)             (6)
                    300 +             15. '"       li. 24t

                      (n)              (39)             (4)
                                     15. 20'
                     (n)              (97)              (23)




While midsized and large hospitals with premature discharges
managed to accrue profits larger than other hospitals in their
respecti ve bed sizes, smaller hospitals who discharged patients
prematurely had only half the profit margins of their peers.
While limited conclusions can be drawn based on the above data

it does appear that the majority of hospitals identified as

prematurely discharging patients, (small , rural facilities), may

not be as financially viable as their peers.


III.   CONCLUSION

This study quantifies for the first time the frequency of
premature discharges in a randomly selected, national sample.
We found approximately . 8 percent of all Medicare discharges to
be premature. Our study indicated that the problem existed
primarily in small, rural hospitals who, apparently to minimize
financial losses, may be discharging patients prematurely.
the patients discharged inappropriately, the majority had quality
of care issues associated with their stay in the hospital.
Inadequate treatment . and incomplete therapies characterized most
premature discharge cases.
There did not appear to be a discernable pattern in the DRGs or
their respective MDCs assigned to the premature discharge cases.
These cases reflected the frequencies of occurrence in the entire
sample. The DRG coding errors were identified in 20. 3 percent of
the 74 premature discharge   cases.The effect of these coding
errors tended to favor the hospital slightly more often than the

coding errors found in the entire sample.
Overall ,about 1 in 100 sampled beneficiaries were
inappropriately discharged , indicating that the occurrences of

premature discharges are fewer than previously suspected.
Although the number is small , one in five hospitals reviewed had

at least one occurrence of a premature discharge; one in every

three rural hospitals had one or more identified instances.
As mentioned previously, this issue has received scrutiny from

congressional committees , consumer groups and governmental

agencies. Many of the recommendations from these studies were

aimed at protecting the quality of patient care under PPS and

have been or will be implemented by HCFA and the PROs.

Since the time our sampled patients were discharged from the
hospital (October 1984 through March 1985), PROs have received
increased authorities to deal with instances of premature
discharges and/or poor quality of   care.  Hospital paYment for
subsequent stays in the same hospital , necessitated by a
premature discharge, can now be denied. Soon , PROs will be able
to deny payment for identified instances of substandard care.
Also , PRO screens , used to target hospital cases for scrutiny for
possible premature discharges, have been expanded to include
sampling of all readmissions occurring within 31 days of the
ini tial discharge. In addition , an effort has been underway to
fully advise beneficiaries of their rights under   PPS.   They and
their families should now be aware that a patient cannot be
discharged from the hospital ' simply because " the DRG days are
up. "
Because these measures have not yet been fully implemented

and their effectiveness has not been fully assessed , we do not

recommend at this time that
 addi tional safeguards be
established.
AlSO, HCFA is continuing to address the premature discharge
issue.   Several PRO studies were completed in the spring of 1987.
These reports concluded that the premature discharge of patients
was not a pervasive problem in the respective states reviewed.
However , none of the PROs recommended that safeguards to prevent
such occurrences be relaxed. Rather , the reports:
            recommended that PROs identify and focus review efforts

            on patient populations which appear to be more at risk

            of being prematurely. discharged (California, Alabama,

            Iowa PROs);


            suggested changes in the generic discharge screens
            currently being used by PROs (Iowa PRO);
          commented on the effectiveness of concurrent discharge

          review by the PRO of patients that are to be

          transferred to SNFs after their discharge from the

          hospi tal (Al abama, Iowa , Arkansas PROs);

          stressed the importance of discharge planning in

          preventing readmissions to the hospital (Oregon PRO);
          and finally


          stressed the importance of accurate coding of discharge

          destinations on the Medicare bill. This information

          can help target potential patient populations at risk

          of inappropriate discharge (Florida , Alabama , Arkansas,

          California PROs).

We hope that information contained in this report along with the

resul ts and recommendations from the PRO studies will assist HCFA

in formulating policy and strategies in this area. We support
continued vigilance on the part of HCFA and the PROs in:

     detecting individual cases of inappropriate discharges;

    profiling hospitals and physicians to identify aberrant

    discharge patterns;
    denying reimbursement for subsequent hospital stays

    resul ting from a premature discharge; and


    sanctioning of hospitals and physicians engaged in putting

    financial concerns above the well being of their patients.

                            APPENIX I

Sampling and Methodology


The National DRG Validation Study used a stratified two-stage
sampling design based on hospitals. The sample divided the
population of hospitals meeting the study s eligibility criteria
(outlined below) into 3 groups based on bed
beds , 100 to 299 beds, 300 or more beds.
                                             size: less than 100

The first stage used simple random sampling without replacement
to select 80 hospitals wi thin each group for a total sample size
of 240 hospitals. First, it included only acute care, short stay
facili ties.  This test also excluded specialty institutions, such
as children s hospitals. Second , as of October 1 , 1983 , a
waiver provision exempted New York, New Jersey, Massachusetts and
Maryland from PPS. Therefore, the sample excluded facilities in
these states. Third, the facility had to have contributed data
to the construction of the initial relative weights assigned to
DRG categories at the start of  PPS.  These initial relative
weights derived from a 20 percent sample of Medicare discharges
from facilities participating in the program in 1981. To
included in the sampling frame, a facility had to both contribute
discharges to the construction of the initial relative weights
and to participate as a provider at the beginning of PPS,
October 1, 1983.
The effective universe of hospitals available for study numbered

  913. Of the initial sample of 240 hospitals, 1 facility
terminated its Medicare eligibility between the sampling
time frame and the actual collection of medical records. The
first-stage sample therefore included 239 (4. 9 percent) randomly
selected, short term , acute care facilities eligible under the
Medicare program at least since 1981 and not located in a waiver
State.
The second stage of the design employed systematic random

sampling to select 30 Medicare discharges from each of the 239

hospi tals. The HCFA' s Bureau of Data Management and Strategy

(BDMS) supplied a list of all final bills received by BDMS from

the fiscal 
 ntermediaries through April 30, 1985. Each  bill
represented one Part A Medicare discharge for the time period
October 1, 1984 , to March 31 , 1985. If a facility had less than
30 discharges during the applicable period, we selected all
is available Medicare discharges.
Record Collection


In mid-1986, OIG sent registered letters to the selected

hospi tals , requesting copies of the complete medical record for

each of the sampled discharges.    Administrative subpoenas
compelled the participation of a few institutions. Of the
222 396 records available from the 239 hospitals, the sample
design requested 7 076 (3. 2 percent). The study ultimately
received and reviewed 7, 045 (99. 6 percent) medical records. The
hospi tals could not locate the remaining 31 records.

Medical Review


Physicians experienced in chart review analyzed all cases of

premature discharge. The physician scrutinized the entire

patient record to determine whether the patient required further

hospitalization at the time of discharge.  On discovering an
instance of premature discharge, the physician dictated a
narrative sumary describing the nature of the deficiencies and
ci ting supporting evidence from the patient chart. This
methodolog paralleled the process used in local peer review
and by the PROs. The reviewers had instructions to ignore
marginal problems or cases involving honest differences in
medical judgment about appropriate management , selecting only
discharges exhibiting major inadequacies under any recognized
standard of care.
Appropriate medical experts reviewed records presenting specialty
care issues. Physician panels convened to decide difficult
cases.  The bulk of reviewing physicians had appropriate Board
certification, committee experience and recent patient care
responsibili ty. An OIG physician reviewed the clarity and
consistency of each medical reviewer s conclusions.
statistical Analysis

Because of the two-stage sample design, this report evaluated its

data by hospitals rather than by discharges. It calculated
proportions of events as the number of events over the total
number of discharges reviewed wi thin each bed size group.
Estimates for the total sample (weighted proportions) were
weighted by the number of hospitals in each group.   proj ections
to the universe of discharges derived from the inverse of the
sampling fractions with the estimates and variances calculated
accordingly.
Poststratification analysis followed HCFA practices for
classifying bospi tals by their demographic characteristics ­
urban versus rural location and teaching status. Urban versus
rural status depended on whether the hospital' s location fell
within the boundaries of a standard metropolitan area as defined
by the Census Bureau. The HCFA considered a hospital to have
teaching status if it has an accredited residency program.
These two characteristics warranted logi t analysis because they
affected the hospital' s payment under PPS.
This survey employed a generalized logi tanalysis using weighted
least squares for categorical data to test the effects of these
variables on the various events measured in this study.  This
procedure reweighted data to properly represent the effect of
independent variables not controlled by the appropriate degrees
of freedom and provided a test of the significance of the model
parameters and the goodness of fit of the models.
                         APPENDIX II

                    HOSPITAL DEMOGRAHICS



                         PREMATURE       ALL         PREMTURE    ALL
                         DISCHARGE       SAMLE       DISCHARGE   SAMPLE
TCHST    URST    SIZE    HOSPITAL        HOSPITALS   CASES       CAS ES


TEACH­   URBAN   (100
ING               100­
                  299                                              449
                  300+                                            1345

NON/     URBAN   (100                                              393
TEACH­            100­
ING               299                                             1226
                  300+                                             898

NON/     RURA    (100                     . 63                    1821
TEACH­            100­
ING               299                                              712
                  300+                                             142

TOTAL                      , 52            239                    7045




                                  2()

                      APPENIX III
   FREQUENCY OF PREMATURE DISCHARGES BY HOSPITAL





 CASE FREQUENCY OF          # OF      PERCENTAGE OF
PREMATURE DISCHARGE       HOSPITALS   CASE FREQUENCY

                                          54.
                                          18.
                                         10.
                                                                    ---
                                                          APPENDIX IV
                                             DISCHARGE DESTINATION BY BED SIZE



Discharge                 D1Spos1tion of Complete                         Dispos1t1on of Premature Discharge (PD)
Destination               Sample by Hospi tal    Bed Si                   Subsample by Hospital Bed Size
Code
                                                          , Case                                                  PD Case
               ( 100      100-299     300+       Total Freauency        ( 100      100-299         300+   Total Frequency
               1499       1739       1833         5071      71.                                                  64.
   HOME        (65. 95') (72. 85') (76. 86')                            (57. 45') (72. 22') (88. 89')

Another
Acute Care                                        158
HOSDi tal      (3. 8n)    (2. 09\)   (0. 8U)                            (4. 26')   None           None
                                                 131        1.86
   SNF         ( 2. On)   (1. 72')   (1. 80')                           (2. 13')   None           None            1. 35

               296        238        136         670
   ICF         (13. 21\) (9. 9n)     ( 5. 70')                          (23. 40') (22. 22') (11. 11')            21.

Another                                          119        1.69
Insti tution   (2. 20')   (1. 34\)   (1. 55')                           (2. 13')   None           None            1. 35

               124        125        141         390

   HHA         (5. 46')   (5. 24\). (5. 91\)                            (6. 38')   ( 5 .   56')   None


Patient
Left           (0. 44')   (0. 50')   (0. 25')                           None       None           None    None    None
               127        148        167         442
Expired        (5. 59')   (6. 20')   ( 7. 00')                          None       None           None    None    None

Still A

Patient        (1. 41')   (0. 08')   (0. 08U                            (4. 26U    None           None

Total          2273       2387       2385        7045
                     ..           ..                                        (,)             (,)


                                                   APPDlrx v
                                          CAE              BY KX

Major Dlagnostic Cateory                                 Freqcy                   Freqcy of Cases
                (KJ)                                     Preture                                   lete
                                                         Discqe Ca
                                                                                  in th

Co an Deinition                                                                   Slle
05: Di_se            , Disords of                              (25. 68')             1660    (23. 56')
       th Circutory Syste


04:    Dise,    Disords of
       th Reiratory Syte
                                                               (20. 27\)            1091     (15. 49')

06: Dises' Disords of                                          (14. 86')              870    (12. 35')
       th Digestive Syste
11:    Dise   , Disords of
       th ltdn an Urina 

                                                               (09 . 46')                    (04. 9lt)

10: fDrine,               Nuition                              (OB. 11')              342   C04. 85')
       , Melic Dise'                     DiSOs
08: Dise
       thMuta, Disos
       Syste, CC'l Tiuu
                                                               C05. 41')              628   C08 .   9lt)


       th Ne              Sy
01: Dise' Dieos                                                C04. 0St)              601   COl. 53' )



       SUDi80
       Dise' Ti                        of th Sk,               C04. 0St)                    (02. 56')

20:    SU  08 ,
       In OZc MIta Di80s
                                                               (02. 70')                    (00. 43')

17: Myro1iferti".  Di....                                      (01. 35\)                    (01. 73')
       8D Diso, Poly Differ­
       entite Hea.
18:    Inec , Pa
       Csystc or           1..
                                   tic D   i...
                                       fi8d 8itM)
                                                               (01. 3St)                    COl. 59')



19: Meta Dise                    , Di8OS.                      (01. 35')              104   C01. 48')

       !C SP        a;uu                                       (01. 35\)                    COO. 94')

07: lltailiu Sy 8I                                                                          C02. 1O)

12: Di.. ,
    Ma Rlrova
                of th     Di                                                          197

                                                                                      185   C02. 63')


03:    01..  , O180 d. th
       Ba, .., 8I 'Dt
                                                                                            (01. 83\)

02:         Di
       t'....   of tb                                                                       (01. 50')

       IC 1'8C 'lc
21: 1Dj1,
                     of Dm
                                                                                            (01. 21')

13:         Di Sy
       f8 Rlva                         of tb                                                C01. 09')


16: Blo, 8l Pong
       IIica Di-
                                        0E..
                                         8D Di
                                                                                            (01. 06')

23:    hcrs Infl18ng BMth Stt\1"
       Ot CCta llth 8Ith SeC1
                                                                                             (00. 4")

22:                                                                                          (00. 07')
15: Nern                  Ot H8te               With                                         COO. Olt)
       COtion Orinating in
       Peinta Peiod
                                                                                                  045
